No.
IN THE SUPREME COURT OF THE UNITED STATES
VALERO ENERGY CORP. AND
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
Petitioners,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent.
CORRECTED APPLICATION FOR AN EXTENSION OF TIME
IN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
To THE HONORABLE JOHN G. ROBERTS, JR., CHIEF JUSTICE OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE DISTRICT OF COLUMBIA CIRCUIT:
Under this Court's Rules 12.4 and 13.5, petitioners Valero Energy Corp. and
American Fuel & Petrochemical Manufacturers (AFPM)1 respectfully request an
extension of time to seek this Court's review by petition for a writ of certiorari over
multiple judgments in related cases. Petitioners aim to prepare a single petition for
a writ of certiorari that would allow this Court to address closely related questions
about how EPA must determine which parties are obligated to satisfy annual volumetric requirements under the Clean Air Act's Renewable Fuel Standard program

Pursuant to this Court's Rule 29.6, petitioner Valero Energy Corp. states that it has no
parent corporation and that no publicly held company owns a 10% or greater interest in its
stock. Petitioner American Fuel & Petrochemical Manufacturers is a national trade association that has no parent corporation and in which no publicly held company has a 10% or
greater ownership interest.
1

RECEIVED
NOV 15 2019

marasm

2
(RFS program), as described below.
In two opinions covering three cases, each of which consolidated multiple petitions for review of EPA actions, the D.C. Circuit resolved important questions
about EPA's duty to administer the RFS program according to specific procedures
that Congress requires. The D.C. Circuit released these opinions and judgments
closely in time (indeed, the mandates were all released on the same date), and petitioners could raise the salient points in a single petition. See this Court's Rule 12.4.
To that end, petitioners respectfully request an extension of time that would take
effect as follows:
A 30-day extension of time, to and including December 30, 2019, within
which to file a petition for a writ of certiorari to review the judgment of the
United States Court of Appeals for the District of Columbia Circuit in the
following two cases that were argued jointly before the same three-judge
panel below: Alon Refining Krotz Springs, Inc. v. EPA (No. 16-1052) and
Coffeyville Resources Refining & Marketing LLC v. EPA (No. 17-1044).2
The judgment of the D.C. Circuit was entered on August 30, 2019, and no
party filed a petition for rehearing. Unless extended, the time for filing a

2 Each of those two cases was itself a consolidation of multiple petitions for review. As
relevant here, Valero's petitions for review were Nos. 16-1055 and 17-1259 (Alon) and 171047 (Coffeyville), and AFPM's petitions for review were No. 18-1029 (Alon) and No. 171051 (Coffeyville).

3
petition for a writ of certiorari would expire on November 29, 2019.3
A 25-day extension of time, to and including December 30, 2019, to file a
petition for a writ of certiorari to review the judgment of the United States
Court of Appeals for the District of Columbia Circuit in American Fuel &
Petrochemical Manufacturers v. EPA (No. 17-1258).4 The judgment of
the D.C. Circuit was entered on September 6, 2019, and no party filed a
petition for rehearing. Unless extended, the time for filing a petition for a
writ of certiorari would expire on December 5, 2019.
If the requested extension is granted, the time for filing the single petition for a writ
of certiorari addressing all the judgments listed above (or, if that ultimately appears
unhelpful to the Court, two separate petitions) would expire on December 30, 2019.
Pursuant to this Court's Rule 13.5, petitioners are filing this application at
least 10 days before the date on which any petition would currently be due. As explained below, petitioners request an extension so their counsel may have adequate
time to prepare the petition. This Court has jurisdiction under 28 U.S.C. §1254(1).
The opinions (reported at 936 F.3d 628 (Alon and Coffeyville) and 937 F.3d 903
(AFPM)), are attached as Exhibits 1 and 2, respectively; the single judgment in
Alon and Coffeyville is attached as Exhibit 3; the judgment in AFPM is attached as

The ninety-day period would expire on November 28, 2019, which is Thanksgiving Day,
thus making the deadline November 29, 2019. See this Court's Rule 30.1.
That case was consolidated with several other petitions for review, including Valero Energy Corp. v. EPA (No. 18-1027).
3

4
Exhibit 4; and the mandates in Alon, Coffeyville, and AFPM are attached as Exhibits 5, 6, and 7, respectively.
1.

The RFS program, part of the Clean Air Act, is codified at 42 U.S.C.

§7545(o). Congress adopted the RFS program in 2005 and amended it through the
Energy Independence and Security Act of 2007, Pub. L. No. 110-140, 121 Stat. 1492
(2007) (EISA). As the Court below explained, the RFS program was Congress's tool
to "increase the production of clean renewable fuels." Ex. 1, infra, at 6 (quoting Pub.
L. No. 110-140, 121 Stat. 1492 (EISA preamble)). Congress also intended the RFS
program "to protect consumers." Pub. L. No. 110-140, 121 Stat. 1492 (EISA preamble).
The RFS program requires EPA to annually determine a "renewable fuel obligation" using notice-and-comment rulemaking. 42 U.S.C. §7545(o)(3)(B)(ii). The
renewable fuel obligation is expressed in a volumetric rule that establishes how much
renewable fuel must be included in the nation's transportation fuel for a given year.
But who should be obligated to implement this mandate? Congress limited EPA to
three choices: "refineries, blenders, and importers, as appropriate."

Id.

§7545(o)(3)(B)(ii)(I).5 This determination is one of three "[r]equired elements" of
"[t]he renewable fuel obligation determined for a calendar year."

Id.

Refineries (i.e., refiners) produce petroleum blendstock from crude oil; blenders mix
blendstock with renewable fuel and additives, which actually produces transportation fuel
(e.g., gasoline or diesel).

5
§7545(o)(3)(B)(ii). The forthcoming petition for a writ of certiorari will focus only on
this required element—the "point of obligation."
The court below acknowledged that "the point of obligation is the foundational
`compliance provision' of the entire [RFS] program". Ex. 1, infra, at 6. EPA addresses the other "required elements" annually, but it has never adjusted the point
of obligation. Indeed, in the context of an annual rulemaking, EPA has never even
considered the appropriate point of obligation, despite the statutory text making it
the first "required element" for every annual rule.
2.

These cases involve two annual volumetric rules and one collateral pro-

ceeding, all presenting the point-of-obligation issue from different perspectives
(omitting other arguments raised in each case):
Coffeyville (the 2017 Rule). In comments on the proposed 2017 annual rule,
petitioners presented evidence that the point of obligation was preventing the RFS
program from functioning as intended. EPA deemed these comments "beyond the
scope" of the rulemaking, reasoning that it need not consider the point of obligation
at all. In their petitions for review before the D.C. Circuit, petitioners argued that
an expressly articulated statutory "required element" of an annual rulemaking is
never beyond the scope of the rulemaking.
Alon (the collateral proceeding). Only a few days before finalizing the 2017
rule, EPA initiated a collateral proceeding in which it proposed to deny long-pending
administrative petitions to change the point of obligation. 81 Fed. Reg. 89,746,

6
89,781 n.133 (Dec. 12, 2016). The proposal cited out-of-date information and stated
that EPA did "not believe the challenges faced by some refiners in the current market are the result of their designation as obligated parties in the RFS program."
EPA, Denial of Petitions for Rulemaking to Change the RFS Point of Obligation,
EPA-420-R-17-008 (November 2017), at 27 (emphasis added). EPA finalized that
denial nearly a year later. See 82 Fed. Reg. 56,779 (Nov. 30, 2017). In petitions for
review to the D.C. Circuit, petitioners challenged EPA's denial as well as EPA's failure to consider substantial support for the revision of the current point of obligation.
AFPM (the 2018 Rule). Around the same time that EPA denied the petitions
for rulemaking at issue in Alon, it also finalized the 2018 annual rule. In petitions
for review filed in the D.C. Circuit, petitioners challenged the reasonableness of
EPA's interpretation of waiver provisions, its refusal to respond to comments that
revealed new data and analysis of central relevance to the issues identified in the
proposed rule, such as escalating harms flowing directly from the point of obligation,
and its refusal to consider comments on its failure to determine an "appropriate"
point of obligation.
3.

The D.C. Circuit denied all petitions for review relating to the point of

obligation. In Coffeyville, the majority held that the Act does not make the point of
obligation an annual "required element." Ex. 1, infra, at 45-46. Because the point
of obligation is so important, the majority reasoned, Congress could not have required EPA even to consider the matter in annual rulemaking. Id. at 49-51. Yet,

7
envisioning future "extreme circumstances," the court also disclaimed "limitless and
unreviewable discretion" for EPA. Id. at 53.
Judge Williams strenuously "disagree[d] with the [majority]'s conclusion,
which grants EPA essentially unfettered discretion as to when—or even if—it will
consider the appropriateness of the point of obligation." Ex. 1, infra, at 14 (concurring opinion). To him, the statutory mandate of an annual consideration—even if not
an annual change—was a matter of clear text. Id. at 4-5. Judge Williams did not
dissent, however, because he agreed with the majority in the Alon decision, Ex. 1,
infra, at 32-41, that EPA's treatment of the petition for rulemaking satisfied for that
year the duty to consider the point of obligation. Ex. 1, infra, at 16 (concurring opinion). Judge Williams noted that the denial of the petition for rulemaking in Alon was
"subject to a more deferential form of arbitrary and capricious review" than would
be true of an annual RFS program rulemaking, ibid., but he agreed with the majority that EPA had satisfied it.
Finally, in AFPM, released a week later, the D.C. Circuit rejected the challenges to the 2018 Rule. Despite the annual duty and despite EPA's separate request for comments about the MN market's functioning, the court held that "EPA
correctly dismissed comments regarding its RIN policy for renewable fuel exports
as outside the scope of the 2018 Rule." Ex. 2, infra, at 36. And it relied on Alon to
reject the annual duty itself. Id. at 39.
4.

Petitioners respectfully submit that the D.C. Circuit's error is both

8
manifest and of great significance to ensuring that all agencies comply with clearly
articulated statutory requirements. As Judge Williams expressed, by rejecting petitioners' textual argument, "the panel . . . arrived at its conclusion only by extending
to EPA the type of 'reflexive deference' that the Supreme Court has recently criticized." Ex. 1, infra, at 14 (concurring opinion).
Review of the judgments below will provide a prime opportunity to ensure
that agencies comply with their governing statutes. EPA ignored a clear statutory
mandate, and the D.C. Circuit paved the way for EPA to continue doing so every
year. These errors affect and distort one of the largest and most important sectors
of the economy, amplifying the need for review. Nor will these consequences be
limited to the RFS program. When Congress establishes a procedure for achieving
any goal, agencies may no more disclaim the procedure than the goal itself. Courts
must ensure that agencies are not free to disregard these procedures.
5.

Petitioners respectfully request an extension of time to file a petition

for a writ of certiorari for the following reasons:
An extension of time is necessary to enable counsel to prepare the petition on
this complex matter. Even EPA has recognized that statutory volume requirements
have not been met for many years. A multitude of opinions now enshrine the RFS
program's failings. Succinct presentation of these issues requires careful review and
coordination among multiple parties and their counsel. Undersigned counsel intends
to use the requested extension to winnow and distill the issues presented to only

9
those most urgently and appropriately warranting this Court's attention.
Given the upcoming Thanksgiving Holiday, access to co-counsel for the parties is limited. In addition, undersigned counsel is subject to a substantial number
of conflicts, warranting additional time to prepare the petitions
Finally, no meaningful prejudice would arise from the extension. Respondent
prevailed below and will not be harmed by an extension of 30 days or less; indeed,
by attempting to consolidate the issues into a single petition, the additional time will
create efficiencies for all parties and the Court. Furthermore, should the Court
grant the petition for a writ of certiorari, it is almost certain that the soonest this
Court could hear oral argument would be in October Term 2020 regardless of
whether an extension is granted.
Thus, the requested extension, so that the petition (or, if necessary, petitions)
for a writ of certiorari would be due by December 30, 2019, is necessary to afford

'These conflicts include multiple professional, personal, and civic obligations. For example,
he has or had multiple briefing deadlines and oral arguments since the D.C. Circuit's opinions were released. Evan A. Young argued in the Texas Supreme Court on September 26
in No. 17-0736, Teal Trading & Development, LP v. Champee Springs Ranches Property
Owners Association; he argued in the Texas Supreme Court on October 8 in No. 19-0452,
Janvey v. GMAG, LLC; he is scheduled to argue in the U.S. Court of Appeals for the Ninth
Circuit in No. 18-16721, Becerra v. Dr Pepper/Seven Up; and he will be preparing for argument in the Texas Supreme Court in No. 18-0403, Credit Suisse AG v. Claymore Holdings,
LLC, on January 8, 2019. He has had or will have multiple briefing obligations in state and
federal courts, including this Court, and has had multiple travel obligations for professional,
bar, and personal purposes, including speaking at a conference and serving on the Texas
Judicial Council and the (Texas) Supreme Court Advisory Committee. Further, arguing
counsel below, Samara Kline, is on lengthy and long-scheduled international travel with
minimal access to electronic communication.

10
counsel time to complete review of the record, consult meaningfully with co-counsel,
and prepare a petition that will be of the greatest assistance to the Court.
Respectfully submitted.

November 12, 2019
(Corrected Application Hand Delivered
November 15, 2019)

Evan A YJ4hng
Counsel of Record
BAKER BOTTS L.L.P.
98 San Jacinto Blvd., Suite 1500
Austin, Texas 78701
(512) 322-2506
evan.young@bakerbotts.com

